                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




     AGREED-UPON PROCEDURES FOR CORPORATION
         GRANTS AWARDED TO SERVE ALASKA

                      OIG REPORT 11-07




                         Prepared by:

                  Clifton Gunderson LLP
               11710 Beltsville Drive, Ste. 300
                   Calverton, MD 20705




This report was issued to Corporation management on March 17, 2011. Under the
laws and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
September 13, 2011 and complete its corrective actions by March 16, 2012.
Consequently, the reported findings do not necessarily represent the final resolution
of the issues presented.
                                       NATIONAL&:
                                       COMMUNITY
                                       SERVICEC''t'tt
                           OFFICE OF INSPECTOR GENERAL

                                         March 17, 2011


TO:            John Gomperts
               Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld         ~;;kA~A
               Assistant Inspector General for Audit

SUBJECT:       OIG Report 11-07, Agreed-Upon Procedures Review of Corporation Grants
               Awarded to the Alaska State Community Service Commission (Serve Alaska).


Attached is the final report for the above-noted agreed-upon procedures, which were performed
for the OIG under contract by the independent certified public accounting firm of Clifton
Gunderson LLP (Clifton). The contract required Clifton to conduct its review in accordance with
generally accepted government auditing standards.

Clifton is responsible for the attached report, dated March 17, 2011, and the conclusions
expressed therein . The agreed-upon procedures, unlike an audit in accordance with U.S.
generally accepted auditing standards, was not intended to enable us to express opinions on
Serve Alaska 's Consolidated Schedule of Awards and Claimed and Questioned Costs or the
Subgrantees' Schedule of Awards and Claimed and Questioned Costs, conclusions on the
effectiveness of internal controls, or compliance with laws, regulations, and grant provisions.

Under the Corporation's audit resolution policy, a final management decision on the findings in
this report is due by September 13, 2011. Notice of final action is due by March 16, 2012.

If you have questions pertaining to this report, please call me at (202) 606-9360, or Rick
Samson, Audit Manager, at (202) 606-9380.

Attachment

cc:     Nita Madsen, Executive Director, Serve Alaska
        Dawn Grossmann, Commissioner
        Pat Davidson, Legislative Auditor
        Robert Velasco II, Chief Operating Officer
        William Anderson, Chief Financial Officer, CNCS
        Rocco Gaudio, Deputy Chief Financial Officer, Grants & Field Financial
        Management, CNCS
        Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
        Jack Goldberg, Grant Officer
        Denise Wu, Partner, Clifton Gunderson LLP

                 1201 New York Avenue, NW  *   Suite 830 *; Washington, DC 20525
                     202-606-9390 *                     *
                                    Hotline: 800-452-8210 www.cncsoig .gov

                      Senior Corps * AmeriCorps * Learn and Serve America
               AGREED-UPON PROCEDURES FOR CORPORATION GRANTS
                         AWARDED TO SERVE ALASKA




                            TABLE OF CONTENTS

                                                                 PAGE

EXECUTIVE SUMMARY                                                      1

INDEPENDENT ACCOUNTANT’S REPORT                                        5

SCHEDULE A – CONSOLIDATED SCHEDULE OF AWARD COSTS                      6

SCHEDULE B – SCHEDULE OF AWARD AND CLAIMED COSTS: Serve Alaska         7

SCHEDULE C – SCHEDULE OF AWARD AND CLAIMED COSTS: SAGA                 9

SCHEDULE D – SCHEDULE OF AWARD AND CLAIMED COSTS: RurAL CAP            10

SCHEDULE E – SCHEDULE OF AWARD AND CLAIMED COSTS: Nine Star            12

SCHEDULE F –   SCHEDULE OF FINDINGS                                    13

APPENDIX A:    ALASKA STATE COMMUNITY SERVICE COMMISSION RESPONSE TO
               DRAFT REPORT

APPENDIX B:    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
               RESPONSE TO DRAFT REPORT




                                      i
                                      Executive Summary


The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Clifton Gunderson LLP (auditors) to perform agreed-upon
procedures on grant cost, and compliance with applicable regulations for Corporation-funded
Federal assistance provided to the Alaska State Community Service Commission (Serve
Alaska).

Results

As a result of applying the procedures, the auditors questioned claimed Federal-share costs of
$10,430, match costs of $10,528, and education award costs of $17,634. A questioned cost is
an alleged violation or non-compliance with grant terms and/or provisions of laws and
regulations governing the expenditures of funds; or a finding that, at the time of testing,
adequate documentation supporting a cost item was not readily available. The results of our
agreed-upon procedures are summarized in the Consolidated Schedule of Award Costs
(Schedule A).

Serve Alaska claimed total Federal costs of $3,552,928 and total match costs of $3,081,660
from April 1, 2008, through March 31, 2010, for grant numbers 06AFHAK001, 07ACHAK001,
07ESHAK001, 09RCHAK001 and 09RFHAK001. Serve Alaska also claimed Federal costs of
$313,340 and total match costs of $59,842 from July 1, 2008, through June 30, 2010, for grant
numbers 08PTHAK001, 09CDHAK001 and 10CAHAK001. Based on testing a judgmentally
selected sample of transactions, the auditors questioned claimed costs as detailed below:

                         Type of                Federal    Match      Education
                   Questioned Costs              Share     Share       Award
            Timesheet exceptions                 $ 1,169    $ 2,176      $ 8,182*
            Members were no longer
            serving on the grant program           4,578      6,279         7,089
            No follow-up on criminal
            background findings                    5,069      2,293         2,363
            Unsupported allocation of
            travel costs                              84      (220)              -
            Upward adjustment on
            recovery grant                         (470)          -             -
                                     Totals      $10,430    $10,528       $17,634
          * Includes accrued interest of $2,207

Participants who successfully complete their AmeriCorps term of service are eligible for
education awards and, in some cases, accrued interest awards funded by the Corporation’s
National Service Trust. These award amounts are not funded by the Corporation grants and, as
a result, are not included in the claimed grant costs. However, when the grant award is made,
the education awards become obligations of the Corporation’s National Service Trust.
Therefore, as part of our agreed-upon procedures and applying the same criteria used for the
grantee’s claimed costs, we determined the effect of our findings on AmeriCorps members’
entitlement to education and accrued interest awards.




                                                 1
The auditors compared Serve Alaska’s inception-to-date drawdown amounts with the amounts
reported in its last Federal Financial Report (FFR) for the period tested and determined that the
drawdowns were reasonable.

We questioned $15,427 in education awards and $2,207 of accrued interest because service
hours were inconsistent with the grant, follow-up was not conducted on the criminal background
check, or adequate support for certified hours of service was not available.

Details of the questioned costs, grant awards, non-compliance with grant provisions, applicable
laws and regulations are presented in the Schedule of Findings that follows the results of our
agreed-upon procedures, which are summarized below.

       Controls of costs claimed were not fully implemented;

       Grantee sub-awarded funds in excess of the Corporation grant award;

       Lack of adequate procedures for conducting criminal background checks and searches
       of the National Sex Offender Public Registry;

       Proof of U.S. citizenship was not properly verified prior to the member’s start date;

       Lack of adequate procedures to ensure complete member contracts and to obtain
       parental consent forms for minors;

       Lack of procedures to ensure member service hours are properly recorded;

       A supplemental living allowance was provided to a member without proper disclosure to
       the Corporation;

       Member information reported in eGrants did not agree with the member’s enrollment
       form or member contract;

       Lack of adequate controls to document members’ attendance at orientation, maintain
       member evaluations, and process member enrollment and exit forms within established
       timeframes;

       Salary cost for one staff person was undercharged to a grant; and

       Three members were converted to full-time, but were no longer serving on the grant
       program.

Background

The Corporation, under the authority of the National Community Service Trust Act of 1993 (as
amended), awards grants and cooperative agreements to State commissions, nonprofit entities,
and tribes and territories to assist in the creation of full- and part-time national and community
service positions. AmeriCorps members perform service for grantees to meet educational,
human, environmental, and public safety needs. In return, eligible members may receive a
living allowance and post-service education benefits.




                                                2
In 1994, Governor Walter J. Hickel established Alaska’s eligibility to receive AmeriCorps Learn
& Serve America funding by creating the Alaska State Community Service Commission, later
renamed Serve Alaska. Serve Alaska is comprised of 15 to 25 voting members who are
appointed by the governor. They recommend formula and competitive applications to the
Corporation for grant awards. Serve Alaska is part of the State Department of Commerce,
Community and Economic Development, which also serves as Serve Alaska’s fiscal agent. In
addition to AmeriCorps grants, Serve Alaska receives the following grant funding:

   •   Administrative – Supports the revision and development of a comprehensive state plan
       and assists in coordinating with partners to promote national service and volunteerism in
       Alaska to address unmet needs in underserved communities.

   •   Program Development and Training (PDAT) – Provides support for subgrantees and
       interested organizations to promote and expand service opportunities.

   •   Disability – Engages the disability community to promote and strengthen volunteer
       opportunities for people with disabilities.

Serve Alaska provided grants to five subgrantees during the period covered by this report. The
subgrantees, which use the funds to support their operations and provide member support,
maintain supporting documentation for the claimed costs and member files. The subgrantees
submitted their monthly Periodic Expense Reports to the Corporation’s Web-Based Reporting
System (WBRS) until the end of Program Year (PY) 2007 – 2008. After that, WBRS was no
longer used for that purpose. Serve Alaska now prepares the aggregate FFR for the grant by
accumulating the expenses reported on subgrantees’ monthly Periodic Expense Reports and
submits its FFR through the Corporation’s online eGrants system.

Serve Alaska also monitors its subgrantees by reviewing member information and
reimbursement requests, performing site visits and desk reviews, and through regular
communication.

Serve Alaska claimed Federal costs totaling $3,866,268 during the period covered by this
report.

Agreed-Upon Procedures Scope

The auditors performed the agreed-upon procedures from July 2, 2010, through November 30,
2010. The procedures covered the allowability, allocability, and reasonableness of the financial
transactions reported for the following grants and AUP periods:

                       Grants                       AUP Periods
                    06AFHAK001           April 1, 2008 thru March 31, 2010
                    07ACHAK001           April 1, 2008 thru March 31, 2010
                    07ESHAK001           April 1, 2008 thru March 31, 2010
                    09RCHAK001           April 1, 2008 thru March 31, 2010
                    08PTHAK001            July 1, 2008 thru June 30, 2010
                    09CDHAK001            July 1, 2008 thru June 30, 2010
                    10CAHAK001            July 1, 2008 thru June 30, 2010




                                               3
The auditors also performed tests to determine compliance with certain grant terms and
provisions.    The procedures were based on the OIG’s “Agreed-Upon Procedures for
Corporation Awards to Grantees and Subgrantees, dated April 2010.” We focused on Serve
Alaska and two of its subgrantees: Rural Alaska Community Action Program (RurAL CAP) and
Nine Star Enterprises (Nine Star). We tested Serve Alaska transactions totaling $22,920. We
also tested transactions totaling $108,804 for RurAL CAP and $41,514 for Nine Star. The OIG
also requested a limited-scope review of the Southeast Alaska Guidance Association (SAGA)
based on agreed-upon procedures the OIG provided on September 1, 2010. This testing was
limited to SAGA’s member compliance for the period of April 1, 2008, through March 31, 2010.
Additional inquires were made regarding costs incurred for specific members through November
30, 2010.

Exit Conference

We provided a draft report and discussed its contents with officials of the Corporation, Serve
Alaska, and applicable subgrantees at an exit conference on December 17, 2010.

Serve Alaska’s written response is included in Appendix A and summarized after each
recommendation. The Corporation response is in Appendix B.




                                              4
a1
                                     INDEPENDENT ACCOUNTANT’S REPORT
                                    ON APPLYING AGREED-UPON PROCEDURES


Office of Inspector General
Corporation for National and Community Service


We have performed the procedures, agreed to by the Corporation for National and Community
Service (Corporation) Office of Inspector General (OIG), solely to assist you in evaluating
certain information reported by Serve Alaska in accordance with its Corporation grant terms and
provisions, and applicable laws and regulations, for the period from April 1, 2008, through June
30, 2010. Serve Alaska and its subgrantees are responsible for the accuracy and completeness
of the reported information. This agreed-upon procedure engagement was conducted in
accordance with attestation standards established by the American Institute of Certified Public
Accountants and Government Auditing Standards, issued by the Comptroller General of the
United States. The sufficiency of the procedures is solely the responsibility of the OIG.
Consequently, we make no representation regarding the sufficiency of the procedures either for
the purpose(s) enumerated or for any other purpose.

The results of our procedures are described in the Schedule of Findings.

We were not engaged to, and did not conduct an examination, the objective of which would be
the expression of an opinion on the reported information. Accordingly, we do not express such
an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the OIG, the Corporation, Serve
Alaska, and the U.S. Congress, and should not be used by anyone other than these specified
parties.




Calverton, Maryland
December 17, 2010




11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                                  5                           h
                                                                                                              Schedule A
                                   Corporation for National and Community Service
                                                    Serve Alaska
                                      Consolidated Schedule of Award Costs

                                                           Claimed                    Questioned Cost
                                          Approved          Federal         Federal          Match        Education
 Award No.             Program              Budget           Cost            Cost             Cost          Awards        Schedule
07ACHAK001        SAGA                                                         $9,647          $8,572          $9,452         C
07ACHAK001        RurAL CAP                                                      1,169           2,176           6,932        D
07ACHAK001        AmeriCorps-
                  Competitive             $4,120,891      $2,573,017          $10,816         $10,748         $16,384
06AFHAK001        AmeriCorps-
                  Formula                   2,000,000         843,878
08PTHAK001        Program Develop-.
                  Assist. & Training          263,037         171,264              304                                        B
09CDHAK001        Disability                   94,496          82,234                                                         B
10CAHAK001        Administrative              260,130          59,842            (220)           (220)                        B
                                    1
07ESHAK001        Education Award              36,000                                                            1,250        D
09RCHAK001        AmeriCorps
                  Comp. Recovery              228,840         115,995            (470)                                        D
09RFHAK001        AmeriCorps
                  Formula
                          2
                  Recovery                     56,551          20,038

                       3
                  Total                   $7,059,945      $3,866,268          $10,430         $10,528         $17,634
      1
          The amount represents the fixed fee for an education awards only grant; it has no claimed Federal or match costs.
      2
          This grant was not included within the scope of our review.


      3
          Approved budget and claimed Federal cost amounts include all subgrantee expenses.




                                                                 6
                                                                                  Schedule B
                            Schedule of Award and Claimed Costs
                         For Period July 1, 2008 through June 30, 2010
                                 Serve Alaska – 08PTHAK001
                                                                              Reference
        Authorized Budget (Corporation Funds)                     $263,037     Note 1

        Claimed Federal Costs                                     $171,264     Note 2

        Questioned Federal Costs:
          Unsupported allocation of travel costs           304                 Note 3
                Total Questioned Federal Costs                        $304

                             Schedule of Award and Claimed Costs
                         For Period July, 1, 2008 through June 30, 2010
                                  Serve Alaska – 09CDHAK001
                                                                              Reference
        Authorized Budget (Corporation Funds)                      $94,496     Note 1

        Claimed Federal Costs                                      $82,234      Note 2

                            Schedule of Award and Claimed Costs
                         For Period July 1, 2008 through June 30, 2010
                                 Serve Alaska – 10CAHAK001

                                                                              Reference
        Authorized Budget (Corporation Funds)                     $260,130     Note 1

        Claimed Federal Costs                                      $59,842     Note 2

        Authorized Match Budget                                   $260,130     Note 4

        Claimed Match Costs                                        $59,842     Note 5

        Questioned Federal Costs:
          Unsupported allocation of travel costs          (220)                Note 3
                 Total Questioned Federal Costs                      $(220)

        Questioned Match Costs:
          Unsupported allocation of travel costs          (220)                Note 3
                 Total Questioned Match Costs                        $(220)

Notes

1. The authorized budget amount represents the funding to Serve Alaska according to grant
   number 08PTHAK001, 09CDHAK001 or 10CAHAK001.

2. Claimed costs represent Serve Alaska’s reported Federal expenditures for the period July 1,
   2008, through June 30, 2010, for grant number 08PTHAK001, 09CDHAK001 and
   10CAHAK001. No costs were questioned for grant number 09CDHAK001.




                                                   7
3. The questioned Federal costs of $304 for Grant No. 08PTHAK001, $(220) in Federal and
   $(220) in match costs for Grant No. 10CAHAK001 were due to the lack of documentation to
   support the allocation of the Program Coordinator’s travel costs to the PDAT Grant (see
   Finding 1).

4. The authorized match budget represents the funding to Serve Alaska in accordance with
   Grant No. 10CAHAK001.

5. Claimed match costs represent Serve Alaska’s reported match expenditures for the period
   January 1, 2010, through June 30, 2010, for Grant No. 10CAHAK001.




                                            8
                                                                                Schedule C
                          Schedule of Award and Claimed Costs:
                                  SAGA - 07ACHAK001
                      AUP Period April 1, 2008 through March 31, 2010

                                                                                Reference
   Authorized Budget (Federal Funds)                               $1,308,771    Note 1

   Authorized Match Budget                                         $1,509,811     Note 2

   Questioned Federal Costs:
     Members converted to full-time, but were no
       longer working on the grant program                 4,578                  Note 3
     No follow-up on criminal background findings          5,069                  Note 4
              Total Questioned Federal Costs                           $9,647

   Questioned Match Costs:
     Members converted to full-time, but were no
       longer working on the grant program                 6,279                  Note 3
     No follow-up on criminal background findings          2,293                  Note 4
               Total Questioned Match Costs                           $ 8,572

   Questioned Education Awards:
     Members converted to full-time, but were no
       longer working on the grant program                 7,089                  Note 3
     No follow-up on criminal background findings          2,363                  Note 4
               Total Questioned Education Awards                       $9,452

                                  SAGA - 06AFHAK001
                      AUP Period April 1, 2008 through March 31, 2010

                                                                                Reference
   Authorized Budget (Federal Funds)                                 $224,987    Note 1
   Authorized Match Budget                                           $109,265    Note 2

Notes

1. The authorized budget amount represents the funding to SAGA in accordance with the grant
   agreement.

2. The authorized match budget amount represents the funding to SAGA in accordance with
   the grant agreement.

3. Questioned costs include $4,578 in Federal costs, $6,279 in match costs, and $7,089 in
   costs for the related education award for members who were converted to full-time positions
   but who were no longer serving on the grant program (see Finding 11).

4. Questioned costs include $5,069 in Federal costs, $2,293 in match costs, and $2,363 in
   costs for an education award due to a lack of follow-up on a criminal background finding
   (see Finding 3).




                                                    9
                                                                                                        Schedule D
                               Schedule of Award and Claimed Costs:
                                       RurAL CAP - 07ESHAK001
                             AUP Period April 1, 2008 through March 31, 2010

                                                                                                Reference
                                                   4
            Authorized Budget (Federal Funds)                                       $36,000       Note 1

            Questioned Education Award
                        Timesheet exceptions                         $1,250
                Total Questioned Education Awards                                    $1,250       Note 5

                                 Schedule of Award and Claimed Costs:
                                      RurAL CAP - 07ACHAK001
                             AUP Period April 1, 2008 through March 31, 2010

                                                                                                Reference
            Authorized Budget (Federal Funds)                                   $1,648,692       Note 1

            Claimed Federal Costs                                               $1,111,638        Note 2

            Authorized Match Budget                                             $1,337,264        Note 3

            Claimed Match Costs                                                 $ 929,372         Note 4

            Questioned Federal Costs:
              Timesheet exceptions                                    $1,169                      Note 5
                   Total Questioned Federal Costs                                    $1,169

            Questioned Match Costs:
              Timesheet exceptions                                    $2,176                      Note 5
                   Total Questioned Match Costs                                      $2,176

            Questioned Education Awards:
              Timesheet exceptions                                    $4,725                      Note 5
              Accrued Interest                                         2,207
                   Total Questioned Education Awards                                 $6,932




4
    The amount represents the fixed fee for an education awards only grant; it has no claimed Federal or match costs.




                                                           10
                                                                                 Schedule D
                          Schedule of Award and Claimed Costs:
                               RurAL CAP - 09RCHAK001
                      AUP Period April 1, 2008 through March 31, 2010

                                                                            Reference
        Authorized Budget (Federal Funds)                       $228,840     Note 1
        Claimed Federal Costs                                   $115,995     Note 2

        Authorized Match Budget                                 $ 27,424     Note 3
        Claimed Match Costs                                     $ 16,384     Note 4

        Upward Adjustment Federal Share                             (470)    Note 6

Notes

1. The authorized budget amount represents the funding to RurAL CAP according to grant
   numbers 07ESHAK001, 07ACHAK001 and 09RCHAK001.

2. Claimed Federal costs represent RurAL CAP’s reported Federal expenditures for the period
   of April 1, 2008, through March 31, 2010, for grant numbers 07ACHAK001 and
   09RCHAK001.

3. The authorized match budget amount represents the funding to RurAL CAP in accordance
   with grant numbers 07ACHAK001 and 09RCHAK001.

4. Claimed match costs represent RurAL CAP’s reported match expenditures for the period of
   April 1, 2008, through March 31, 2010, for grant numbers 07ACHAK001 and 09RCHAK001.

5. Questioned costs include $1,169 in Federal costs, $2,176 in match costs, an education
   award for $4,725, and $2,207 in interest forbearance related to the questioned education
   award for Grant No. 07ACHAK001, and $1,250 in questioned education award for Grant No.
   07ESHAK001 due to lack of documentation of supervisory review of timesheets (see
   Finding 6).

6. Actual salary charged to the Recovery Act Grant was less than the costs supported by the
   timesheets, resulting in an upward adjustment of $470 to the grant.




                                             11
                                                                                    Schedule E
                         Schedule of Award and Claimed Costs:
                              Nine Star - 06AFHAK0010001
                     AUP Period April 1, 2008 through March 31, 2010

                                                                         Reference
          Authorized Budget (Federal Funds)                   $908,397    Note 1

          Claimed Federal Costs                               $308,956     Note 2

          Authorized Match Budget                             $559,514     Note 3

          Claimed Match Costs                                 $300,855     Note 4


                         Schedule of Award and Claimed Costs:
                                Nine Star - 07ACHAK001
                     AUP Period April 1, 2008 through March 31, 2010

                                                                         Reference
          Authorized Budget (Federal Funds)                 $1,167,057    Note 1

          Claimed Federal Costs                               $723,764     Note 2

          Authorized Match Budget                             $954,006     Note 3

          Claimed Match Costs                                 $607,438     Note 4


Notes

1. The authorized budget amount represents the funding to Nine Star according to grant
   agreement.

2. Claimed Federal costs represent Nine Star’s reported Federal expenditures for the period of
   April 1, 2008, through March 31, 2010. No costs were questioned.

3. The authorized match budget amount represents the funding to Nine Star in accordance
   with grant agreement.

4. Claimed match costs represent Nine Star’s reported match expenditures for the period of
   April 1, 2008, through March 31, 2010. No costs were questioned.




                                              12
                                                                                      Schedule F
                                     Schedule of Findings


Finding 1 – Controls of costs claimed were not fully implemented

We selected a sample of 20 transactions each, reported during the period of July 1, 2008,
through June 30, 2010, for the PDAT, Disability and Administrative Grants.

Unallowable Cost Was Charged to Disability Grant

For one of the 20 transactions tested, $112 was paid to print pamphlets, a cost that should have
been charged to the Administrative Grant.

Serve Alaska indicated it was going to use the pamphlets at disability inclusion meetings and
that the additional printing of the pamphlets was only incurred for these meetings, so it believed
that the cost could be charged to the Disability Grant. The information in the pamphlet was
general in nature and not designed solely for use at disability inclusion meetings. The cost of
the pamphlets should have been charged to the Administrative Grant, resulting in a transfer of
$112 from the Disability Grant. The cost is not being questioned, but this is being noted as a
compliance issue.

Criteria:

The State Administrative, Program Development and Training, and Disability Placement Grants
(effective January 1, 2009) Section D.3, states “Grant funds are for the placement, reasonable
accommodation, and auxiliary services for members and potential members with disabilities,
serving in AmeriCorps State or AmeriCorps National Direct programs.” Furthermore, Section
D.3.a.x. states that grant funds may be used to provide auxiliary aids to members and potential
members including, “To modify or enhance an activity or deliverable (e.g. training, brochure, or
website) that is intended to achieve objectives outside the scope of these grant funds, prorate
the costs accordingly.”

Recommendation:

We recommend that the Corporation ensure Serve Alaska:

1a. Only charges cost to the Disability Grant that are consistent with the purpose of the grant.

Serve Alaska Response:

Serve Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.




                                                13
Allocation of Travel Costs Was Unsupported

Serve Alaska was unable to provide support for three of the 20 transactions tested on the
Program Development and Training (PDAT) Grant, which were for the allocation of the Program
Coordinator’s travel costs. In addition, the time allocation on the Program Coordinator’s
timesheet was not consistent with the allocation of travel costs.

Without the support for the allocation of the travel costs, there is no basis to determine its
accuracy. We determined that the cost allocation should have been based on the time
allocation of the traveler’s timesheet. We found that the grantee overcharged the PDAT Grant
by $304, undercharged the Administrative Grant by $220 and match by $220, and overcharged
the Learn & Serve Grant by $136.

               Sample      PDAT      Admin      Admin Match      Learn & Serve
                  6         $ (90)     $(65)           $(65)              $220
                  7           305      (138)           (138)               (29)
                 11             89      (17)            (17)               (55)
                Totals       $304     $(220)          $(220)              $136

The Learn & Serve grant 06KSPAK001 was not within the scope of grants reviewed under the
agreed upon procedures.

Criteria:

45 C.F.R. 2541.200(a)6 states that, “Accounting records must be supported by such source
documentation as canceled checks, paid bills, payrolls, time and attendance records, contract
and sub-grant award documents, etc.”

Recommendations:

We recommend that the Corporation:

1b. Resolve the questioned overstated net travel cost of $304 for the PDAT Grant, the
    understated net travel costs of $220 for the Administrative Grant and $220 for Administrative
    match and overstated net travel costs of $136 for the Learn & Serve Grant.

1c. Ensure travel cost is allocated consistently with the employee time charges while on travel
    or other supportable allocation method.

Serve Alaska Response:

Serve Alaska disagrees with this finding, indicating that the travel ticket was purchased in
advance and allocated as a projection of “duties and time”, to be split between the
Administrative, PDAT and Learn and Serve grants. Serve Alaska felt that this was an accurate
allocation of the costs. Serve Alaska does not believe the comparison of the traveler’s
allocation of time on the timesheet to the purchased ticket allocation is reasonable. In order to
reallocate the ticket price to match timesheets, its Finance department would have to re-open a
charge, re-distribute the charges to match the timesheet and re-process the charge. Serve
Alaska feels this would not be a prudent use of time and resources as appropriate grants were
charged a reasonable amount.



                                               14
Auditors’ Comments:

We received no documentation from Serve Alaska to support how they arrived at the allocation
of the total travel costs for each sample in question. Allocating the total travel costs based on
the methodology the traveler used to charge her time to the various grants is a reasonable and
equitable approach. As indicated in our second recommendation, Serve Alaska can implement
another supportable allocation method. The Corporation should resolve the questioned costs
and ensure that Serve Alaska has taken the appropriate action to address the finding condition.

Timesheet Exception

We tested one random pay period to verify labor costs had been properly charged to the grants.
We noted that there was no supervisory review of the Executive Director’s timesheet for the pay
period ending January 31, 2010. Without documented supervisory review of the timesheet,
there is no assurance that the hours worked by the individual were verified. The salary of
$2,946 charged to the grants ($567 PDAT, $174 Disability, $1,102 Administrative and $1,103
match costs). The cost is not being questioned, but this is being noted as a compliance issue.

Criteria:

The Alaska Administrative Manual, Payroll Section, Time and Attendance 260.010 states, “Pay
for an employee is based on time and attendance data recorded on a timesheet, travel
questionnaire and Leave Request/Report forms 02-035 (leave slip) completed by the employee.
An employee's timesheet accounts for all hours in the pay period and must be verified and
approved by the employee's supervisor.”

Recommendation:

We recommend that the Corporation:

1d. Ensure that Serve Alaska appoints an individual to verify and approve the Executive
    Director’s timesheet in accordance with the State’s policies and procedures and that future
    timesheets contain the supervisor signature and date of approval.

Serve Alaska Response:

Serve Alaska indicated that the State of Alaska does not require Executive Directors to submit
timesheets. Therefore, to ensure grant compliance, Serve Alaska has worked with the
Commissioner of the Department of Commerce, Community, and Economic Development to
establish an additional designee to verify and approve the Serve Alaska Executive Director's
timesheet in the absence of the Deputy Commissioner or the Commissioner. The Director of
Administrative Services is now the third designated signer.

Auditors’ Comments:

Serve Alaska provided no documentation to support its statement that the State’s time and
attendance procedures do not apply to the Executive Director. The Corporation should verify
that Serve Alaska has taken the appropriate action to address the finding.




                                               15
Finding 2 - Grantee sub-awarded funds in excess of Corporation grant award

We compared the amount awarded to Serve Alaska for Grant No. 07ACHAK001 to the amount
that was awarded to the subgrantees and found that Serve Alaska had awarded $3,629 to
subgrantees in excess of the amount that the Corporation awarded to Serve Alaska. The
Corporation had indicated that it did not obligate enough funds for this award and Serve Alaska
awarded the funds to the subgrantees based on what it thought it was going to receive from the
Corporation. Serve Alaska may have to pay any excess costs incurred in excess of the actual
award for Grant No. 07ACHAK001.

                                Grantee              Awarded
                              Serve Alaska             $4,120,891

                               Subgrantee          Sub-awarded
                              Nine Star                $1,167,057
                              RurAL CAP                 1,648,692
                              SAGA                      1,308,771
                              Total                    $4,124,520

                              Difference                   $3,629

Criteria:

Amendment No. 4 of the Notice of Grant Award for Grant No. 07ACHAK001 limits the Federal
funding to $4,120,891.

Recommendation:

We recommend that the Corporation:

2. Ensure that Serve Alaska does not sub-award Federal grants in amounts that exceed the
   total of the grant made by the Corporation.

Serve Alaska Response:

Serve Alaska does not agree that this is a finding. As it stated before and supported with
documentation, the Corporation made an error on the Notice of Grant Award sheet. Serve
Alaska caught the discrepancy and brought it to the Corporation’s attention before the audit.
The Notice of Grant Agreement Amendment No. 2 for Grant No. 07ACHAK001 states: “This
award funds approved PY 2009 – 2010 AmeriCorps Competitive programs as listed on the
approved program funding summary chart.” The AmeriCorps State Funding Summary Chart
showed the subgrants were awarded at their requested level for a total of $1,366,222. The
Notice of Grant Agreement Amendment No. 3 for Grant No. 07ACHAK001 shows total funding
for the PY 2009 – 2010 period as $1,362,593, adding support for the RurAL CAP BIRCH
program for a difference of $3,629. Serve Alaska indicated that it complied with the Notice of
Grant Agreement by following the award description.




                                              16
Auditors’ Comments:

The facts stated in our report are correct and, at the time of our review, no corrective action had
been taken to resolve the issue. However, Serve Alaska has pointed out that the Notice of
Grant Agreement did refer to the approved program funding summary chart and that Serve
Alaska acted in good faith by bringing this error to the Corporation’s attention. The Corporation
should work with Serve Alaska to ensure that the Notice of Grant Award and the AmeriCorps
State Funding Summary Chart are in agreement before issuing awards.

Finding 3 - Lack of adequate procedures for conducting criminal background checks and
searches of the National Sex Offender Public Registry

National Sex Offender Search Was Incomplete or Improperly Performed

In 18 of the 68 member files tested, the searches of the National Sex Offender Public Registry
(NSOPR) by SAGA, RurAL CAP and Nine Star did not cover all 50 states. In one instance, the
search was conducted based on an incorrect spelling of the member’s name. The subgrantees
indicated that they complied with the current Federal regulations. The “Frequently Asked
Questions” provided by the Corporation state, “as long as the NSOPR system is operational,
you are only required to perform the check one time.” However, it also states, “as a best
practice, it would be prudent to re-check the NSOPR at a later date in order to rule out the
possibility that the applicant may be registered in those States.”

By not conducting a complete National Sex Offender search (all 50 states) prior to enrolling the
member, subgrantees can place at risk their programs, Serve Alaska, the Corporation, and the
vulnerable persons they serve. The subgrantee concurred that the search conducted based on
the incorrect spelling of the member’s name was an error on their part.

The subgrantees subsequently provided completed searches for all the members. As a result
no costs were questioned.

Criteria:

45 C.F.R. 2540.203(b) states that “The National Sex Offender Public Web site check must be
conducted on an individual who is serving, or applies to serve, as a Foster Grandparent, Senior
Companion, or AmeriCorps State and National participant or grant-funded staff with recurring
access to children, persons age 60 or older, or individuals with disabilities on or after November
23, 2007.” In addition, 45 C.F.R. 2540.201(a) states that “an individual is ineligible to serve in a
covered position if the individual is registered, or required to be registered, on a State sex
offender registry or the National Sex Offender Registry.”

Recommendations:

We recommend that the Corporation:

3a. Ensure that Serve Alaska strengthens monitoring of its subgrantees and requires that
    NSOPR searches are completed to include all 50 states and conducted prior to the member
    starting service.




                                                17
3b. Revise the “Frequently Asked Questions for National Service Criminal History Checks” for
    compliance with the Federal regulation; that the national sex offender search is conducted to
    include all 50 states.

Serve Alaska Response:

Serve Alaska indicated that subgrantees conducted the NSOPR search in compliance with
Corporation guidelines. It also stated Serve Alaska will comply with any changes to guidelines
made by the Corporation.

Auditors’ Comments:

The Corporation should consider revising its guidance for the NSOPR search and ensure that
Serve Alaska implements the appropriate procedures.

National Sex Offender Search Did not Include Search Based on Member’s Maiden Name

In six of the 68 member files tested, the NSOPR searches performed by RurAL CAP and Nine
Star did not include a search based on the member’s maiden name. RurAL CAP and Nine Star
officials indicated that there is no requirement to conduct a search based on the member’s
maiden name; therefore, they believe that they are in compliance with the Federal regulations.
However, by not conducting a complete NSOPR search to include maiden names, subgrantees
run the risk of failing to detect a registered sex offender. We believe conducting searches with
the maiden name should be adopted as a best practice and would be consistent with the intent
of the regulation.

Criteria:

45 C.F.R. 2540.203(b) states that “The National Sex Offender Public Web site check must be
conducted on an individual who is serving, or applies to serve, as a Foster Grandparent, Senior
Companion, or AmeriCorps State and National participant or grant-funded staff with recurring
access to children, persons age 60 or older, or individuals with disabilities on or after November
23, 2007.” In addition, 45 C.F.R. 2540.201(a) states that “an individual is ineligible to serve in a
covered position if the individual is registered, or required to be registered, on a State sex
offender registry or the National Sex Offender Registry.”

Recommendations:

We recommend that the Corporation:

3c. Revise its guidance on the “Frequently Asked Questions for National Service Criminal
    History Checks” that the national sex offender search includes members’ maiden and
    married names.

Serve Alaska Response:

Serve Alaska indicated that the subgrantees conducted the NSOPR in compliance with
Corporation guidelines, and stated that Serve Alaska will comply with any changes to guidelines
made by the Corporation.




                                                18
Auditors’ Comments:

The Corporation should consider revising its guidance for the NSOPR search and ensure that
Serve Alaska implements the appropriate procedures to address the finding condition.

Criminal Background Check and/or National Sex Offender Public Registry Search Was
Performed after Member Enrollment

In 21 of the 68 member files tested (SAGA 1, RurAL CAP 20), we found the criminal
background check was performed after the member’s start date. In 18 of the member files
reviewed (SAGA 1, RurAL CAP 17), we found the NSOPR search was completed after the
member’s start date.

RurAL CAP indicated that, for the 2008-09 Students in Service program year, it believed that it
would have access to the background checks conducted by its partner, the University of Alaska.
RurAL CAP began performing and documenting the background checks when Serve Alaska
informed it of the new requirements for documenting the checks within its files. However, most
of the criminal background checks and NSOPR searches occurred after the members had
started their terms. For one member, RurAL CAP provided the first-term NSOPR search, but it
was incomplete. As a result, the completed NSOPR search performed for the member’s second
term was also late. SAGA indicated it remained in compliance with the Federal regulations
because it ensured the member was not permitted access to vulnerable populations until the
search was completed.

By not conducting criminal background checks and NSOPR searches prior to enrolling its
members, a subgrantee places itself, Serve Alaska, the Corporation, and vulnerable populations
being served at risk. It also incurs the additional administrative burden to ensure that
unchecked members are supervised at all times when interacting with vulnerable populations.

Criteria

45 C.F.R. 2540.203(a) states that “The State criminal registry check must be conducted on
Foster Grandparents, Senior Companions, and AmeriCorps State and National participants and
grant-funded staff with recurring access to children, persons age 60 or older, or individuals with
disabilities, who enroll in, or are hired by, your program after November 23, 2007.” 45 C.F.R.
2540.204(f) states “Ensure that an individual, for whom the results of a required State criminal
registry check are pending, is not permitted to have access to children, persons age 60 and
older, or individuals with disabilities without being accompanied by an authorized program
representative who has previously been cleared for such access.”

45 C.F.R. 2540.203(b) states that the National Sex Offender Public Registry check must be
conducted on an individual who is serving, or applies to serve, in a covered position on or after
November 23, 2007. 45 C.F.R. 2540.201 states that any individual who is registered, or
required to be registered, on a State sex offender registry is deemed unsuitable for, and may
not serve in, a position covered by suitability criteria.

Recommendation:

We recommend that the Corporation:




                                               19
3d. Ensure that Serve Alaska strengthens its monitoring of subgrantees to ensure that NSOPR
    searches are conducted prior to members starting service and, for members whose National
    Service Criminal History Checks are pending, ensure that a program official is present
    whenever such members interact with vulnerable populations.

Serve Alaska Response:

Serve Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

No Follow-up on Criminal Background Findings

SAGA did not follow up on findings identified in a member’s background check. The
background check indicated that the member had a potential of four criminal charges on his
record. Those charges were not identified. By not investigating the findings of the criminal
background check and documenting the resolution of those charges prior to enrolling the
member, SAGA placed itself, Serve Alaska, the Corporation and the population it serves at risk.
SAGA indicated that follow-up was conducted, but the documentation of the review was not
retained in the member’s file due to an administrative oversight. As a result, we questioned
$5,069 in Federal costs and $2,293 in match member living allowances and an education award
of $2,363.

Criteria

45 C.F.R. 2540.203(a) states “The State criminal registry check must be conducted on Foster
Grandparents, Senior Companions, and AmeriCorps State and National participants and grant-
funded staff with recurring access to children, persons age 60 or older, or individuals with
disabilities, who enroll in, or are hired by, your program after November 23, 2007.” 45 C.F.R.
2540.201(b) states that “an individual is ineligible to serve in a covered position if the individual
has been convicted of murder, as defined in section 1111 of title 18, United States Code.”

Recommendation:

We recommend that the Corporation:

3e. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure that
    criminal background checks are conducted, findings are considered and investigated, and
    results are documented to demonstrate the member’s suitability for service. In addition, the
    Corporation should resolve the questioned costs in the amounts of $5,069 in Federal and
    $2,293 in match member living allowances, and a $2,363 education award.

Serve Alaska Response:

Serve Alaska believes that this is a compliance issue and its related claimed costs should not
be questioned.




                                                 20
Auditors’ Comments:

The Corporation should resolve the questioned costs, including the related education award,
and ensure that Serve Alaska has taken the appropriate corrective action.

Finding 4 – Proof of U.S. citizenship was not properly verified prior to member’s start
date

For seven of the 25 member files tested for RurAL CAP, the documentation provided for proof of
U.S. citizenship was insufficient or was provided after the member started serving. Two of the
members submitted a marriage certificate. This is not a valid proof of citizenship. The
subgrantee subsequently obtained a valid proof of citizenship for these two members. The
other five members provided documentation of citizenship after they started serving. By not
obtaining sufficient proof of U.S. citizenship prior to the member’s start date, RurAL CAP may
have members serving that are not eligible.

Criteria

45 C.F.R. 2522.200(a)(3) states in part that “An AmeriCorps participant must be a citizen,
national, or lawful permanent resident alien of the United States.” Furthermore, Section
2522.200(c) states, in part:

       The following are acceptable forms of certifying status as a U.S. citizen or
       national: 1) A birth certificate showing that the individual was born in one of the
       50 states, the District of Columbia, Puerto Rico, Guam, the U.S. Virgin Islands,
       American Samoa, or the Northern Mariana Islands; 2) A United States passport;
       3) A report of birth abroad of a U.S. Citizen (FS-240) issued by the State
       Department; 4) A certificate of birth-foreign service (FS 545) issued by the State
       Department; 5) A certification of report of birth (DS-1350) issued by the State
       Department; 6) A certificate of naturalization (Form N-550 or N-570) issued by
       the Immigration and Naturalization Service; or 7) A certificate of citizenship (Form
       N-560 or N-561) issued by the Immigration and Naturalization Service.

The C.F.R also states that, “if primary documentation is not available, the program must obtain
written approval from the Corporation that other documentation is sufficient to demonstrate the
individual’s status as a U.S. citizen.”

Recommendation:

We recommend that the Corporation:

4. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure that
   proper documentation of citizenship or legal residency is obtained, reviewed and maintained
   in the member’s file prior to the member starting service.

Serve Alaska Response:

Serve Alaska concurred with the finding.




                                               21
Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Finding 5 – Lack of adequate procedures to complete member contracts and to obtain
parental consent forms for minors

Member Contract for Minor Was not Signed by Parent/Legal Guardian

For seven of 25 SAGA member files tested, the Agreement of Participation (for a minor) did not
have a parent/guardian signature. According to SAGA, the error was due to an administrative
oversight. Without a parent or legal guardian’s signature, the Agreement of Participation is not
legally binding. This places the subgrantee, Serve Alaska and the Corporation at risk if
something should happen to the minor.

SAGA subsequently provided additional evidence that indicated the parent/guardian intended to
have their child participate in the program and would have communicated with SAGA if that
were not the case. As a result, we did not question the costs associated with these members.
However, this is noted as a non-compliance issue with the grant provisions.

Criteria

The 2009 AmeriCorps Special Provisions, Section IV.C. Member Recruitment, Selection, and
Exit, paragraph 2. Parental Consent, states: “Parental or legal guardian consent must be
obtained for members under 18 years of age before beginning a term of service.” The
Agreement of Participation in the AmeriCorps Program of SAGA, Section XI, paragraph C, also
specifically states, “If the member is under 18 years of age, he/she understands that his/her
parent or legal guardian must sign this agreement.”

Recommendation:

We recommend that the Corporation:

5a. Ensure that Serve Alaska strengthens the monitoring of subgrantees to ensure that Member
    Participation Agreements for persons under the age of 18 are signed by a parent or legal
    guardian.

Serve Alaska Response:

Serve Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.




                                              22
Member Contract Was not Signed Prior to Beginning Service

For two of 25 member files tested for RurAL CAP, members began their service terms for
Program Year 2008-09 before signing member contracts. The delays in signing ranged from
four to 10 days. RurAL CAP indicated that improvements were made to its systems to address
this issue for Program Year 2009-10. Given that the members were not properly enrolled prior
to starting their service, any service hours recorded by the member prior to signing the contract
could be questioned, which might cause the member to have insufficient hours to earn an
education award. This is being reported as a non-compliance issue with the grant provisions.

Criteria

The AmeriCorps 2008 Special Provisions, Section IV, D.2. Supervision and Support, Paragraph
2. Member Contracts, state that, “The grantee should ensure that the contract is signed before
commencement of service so that members are fully aware of their rights and responsibilities."

Recommendation

We recommend that the Corporation:

5b. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure member
    contracts are signed before service begins.

Serve Alaska Response:

Serve Alaska identified this issue during previous site visits and has worked with RurAL CAP to
strengthen its procedures.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Incomplete Member Contract in the Member File

For one of the RurAL CAP 25 member files tested, the member file contained only the first page
and the signature page of the member contract. According to RurAL CAP, the partial copy of
the member contract was placed in the file in error. By not including the complete member
contract in the member’s file, RurAL CAP was not in compliance with the grant provisions.

For two of the RurAL CAP member files tested, the member contract did not specify whether the
member was half-time or full-time. RurAL CAP indicated that this issue was due to an
administrative oversight. The member contract should properly reflect whether the member is a
half-time or a full-time member so that there is no confusion regarding the service period,
service hours per week, and the number of hours to be served by the member.

For two RurAL CAP members, the service periods were incorrectly stated on the contracts. The
correct service periods were in the eGrants portal. The member contract should state the
correct service period to avoid confusion regarding the time a member is to provide service.




                                               23
For one of the 18 Nine Star member files tested, the member contract did not contain the dollar
amount of the member’s living allowance. Nine Star indicated that the omission was due to
human error. This information must be disclosed in the contract, so the member understands
what financial benefits he/she is entitled.

Criteria:

The 2009 AmeriCorps Special Provisions, Section IV, D. Supervision and Support, Paragraph 2.
Member Contracts, states:

       The grantee must require that each member signs a contract that, at a minimum,
       includes or refers to the following: a.) Member position description; b.) The
       minimum number of service hours (as authorized by statute) and other
       requirements (as developed by the grantee) necessary to successfully complete
       the term of service and to be eligible for the education award; c.) Standards of
       conduct, as developed by the grantee or sub grantee; d.) Prohibited activities,
       including those specified in the regulations; e.) Requirements under the Drug-
       Free Workplace Act (41 U.S.C. 701 et seq.); f.) Suspension and termination
       rules; g.) The specific circumstances under which a member may be released for
       cause; h.) Grievance procedures; and i.) Other requirements as established by
       the grantee.

Recommendation

We recommend that the Corporation:

5c. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure member
    contracts address all significant issues, including term of service and financial benefits.

Serve Alaska Response:

Serve Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Finding 6 – Lack of procedures to ensure member service hours are properly recorded

Member Timesheet Exceptions

For six of the Nine Star member files tested, there were timesheets that were missing signing
dates for the member and supervisor signatures. Members and supervisors assumed that the
timeframe indicated in the timesheet was sufficient. No costs were questioned, but this is being
noted as a compliance issue.

For three of the RurAL CAP member files tested, timesheets were not properly signed by the
member and/or the member’s supervisor. For two members, the supervisor signed off before
the end of the timesheet period. RurAL CAP indicated that this was due to human error. The
education award for one member was questioned due to insufficient hours to qualify for an


                                              24
education award and is shown in the table below. For the third member, there were timesheets
with no signing dates for the member’s or supervisor’s signatures, missing member signatures
and missing supervisor signatures. RurAL CAP subsequently provided the timesheets with the
missing signatures, but we were unable to verify that they were actually signed before our
testing. The hours related to the timesheets with the missing signatures were questioned and
the questioned costs are identified in the table below.

                                         Hours     Questioned    Questioned
               Total                     Short      Federal        Match       Questioned
    Sample   Timesheet    Questioned       for       Living        Living      Education
    Member     Hours        Hours        Award     Allowance     Allowance       Award
      19       482.5         24             0                -             -             -
      21       468.5         57           38.5               -             -        $1,250
      24       2,021         634          313           $1,169        $2,176        6,932*
                                         Totals         $1,169        $2,176        $8,182
 *Includes $2,207 in accrued interest.

Criteria:

The 2008 AmeriCorps Special Provisions, Section IV. C. Member Recruitment, Selection, and
Exit, Paragraph 4. Timekeeping, states:

       The grantee is required to ensure that time and attendance recordkeeping is
       conducted by the individual who supervises the AmeriCorps member. This time
       and attendance record is used to document member eligibility for in-service and
       post-service benefits. Time and attendance records must be signed and dated
       both by the member and by an individual with oversight responsibilities for the
       member.

The 2008 AmeriCorps General Provisions, Section V. B. Financial Management Standards,
Paragraph 3. Audit, indicates that the records must be available for review and audit.

Recommendation

We recommend that the Corporation:

6a. Resolve the questioned $1,169 in Federal costs and $2,176 in match member living
    allowances, $5,975 in questioned education awards, and $2,207 in interest forbearance
    related to a questioned education award.

6b. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure members
    and supervisors properly sign and date timesheets.

Serve Alaska Response:

Serve Alaska concurs with the finding, but does not believe that the costs for member sample
No. 24 should be questioned. RurAL CAP subsequently provided all of the questioned
timesheets to the auditors. The auditors’ responded that they could not verify that the
timesheets were actually signed prior to their initial review. RurAL CAP included attached
statements from the member and the supervisor stating that the timesheets were all signed at
the time of service and not manufactured after the audit testing in response to this report.



                                              25
Auditors’ Comments:

The Corporation should determine whether these signed statements are sufficient to resolve the
questioned costs and related education award for member sample No. 24. The Corporation
should resolve the remaining questioned education award and ensure that Serve Alaska has
taken the appropriate corrective action.

Finding 7 – A supplemental living allowance was provided to a member without proper
disclosure to the Corporation

A Nine Star member received member living allowance payments that were inconsistent and in
excess of those for members serving under a similar contract. The member received payments
of $2,150 for May 2009 and $1,550 for June 2009. According to Nine Star, the sponsoring
agency wanted to provide a supplemental living allowance for this member and provided the
funding for it. The payment for May included the normal member living allowance of $950, plus
a supplemental allowance of $600. It also included a supplemental allowance for April of $600.
The June payment included the normal living allowance of $950 along with a supplemental
payment of $600. There was no documentation to support that Nine Star had discussed this
arrangement with Serve Alaska or the Corporation.

Other members serving under the same program, but receiving a smaller living allowance, could
cite this practice as unfair and take action (i.e., legal action or inform the media) that may
damage the reputation of Nine Star, Serve Alaska and the Corporation.

Criteria

The AmeriCorps State and National Policies and Policy FAQs, C.15., states, “To ensure
equitable treatment of members, the Corporation discourages grantees from providing different
living allowance amounts to AmeriCorps members serving in the same program. However, a
uniform living allowance amount for each and every member in a program is not absolutely
required. Grantees should discuss the specifics of their proposed member support framework
with their program and grants officers at the Corporation.”

Recommendation

We recommend that the Corporation:

7. Ensure that Serve Alaska strengthens the monitoring of its subgrantees relating to member
   living allowances and ensure that differences in living allowances for members serving
   under similar contracts are disclosed to the Corporation before being implemented.

Serve Alaska Response:

Serve Alaska identified this issue during a site visit prior to the audit and has worked with Nine
Star to strengthen its procedures.




                                                26
Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Finding 8 – Member information reported in eGrants did not agree with member’s
enrollment form and contract

For one RurAL CAP member, the member’s name in the eGrants portal did not match what was
on the enrollment sheet and member contract. The member contract and the enrollment sheet
indicated the member's married name. The member was enrolled in a prior term under her
maiden name, and the Corporation’s system would not let the subgrantee make the change to
her married name. By not being enrolled under her proper name (i.e., maiden versus married),
the member may encounter difficulty in utilizing the education award because it is still under her
maiden name.

Name changes can be accomplished by making a request to the eGrants help desk or the
National Service Information Hotline.

Criteria

The 2009 AmeriCorps Special Provisions, Section IV.G. Member Records and Confidentiality,
Paragraph 1. Recordkeeping, states, in part: “The grantee must ensure that records maintained
are sufficient to establish that each member was eligible to participate and that the member
successfully completed all requirements."

Recommendation

We recommend that the Corporation:

8. Provide guidance related to name changes so that members do not encounter problems
   accessing their education awards.

Serve Alaska Response:

Serve Alaska had no response, but indicated it will welcome any guidance provided by the
Corporation.

Auditors’ Comments:

The Corporation should provide guidance related to name changes so the members can
continue to access their earned education awards.

Finding 9 - Lack of adequate controls to document members’ attendance at orientation,
maintain member evaluations, and process member enrollment and exit forms within
established timeframes

Lack of Documentation for Member Orientation Attendance

For two RurAL CAP members, there was no documentation that the members attended
orientation. RurAL CAP indicated that these members met with their staff one-on-one instead of


                                               27
attending the orientation, but there is no documentation that these one-on-one sessions took
place.

Criteria

The AmeriCorps State and National Policies and Policy FAQs, C.2. Orientation, states that,
“The grantee must conduct an orientation for members. The orientation should be designed to
enhance member security and sensitivity to the community. Orientation should cover member
rights and responsibilities, including the Program’s code of conduct, prohibited activities
(including those specified in the regulations), requirements under the Drug-Free Workplace Act
(41 U.S.C. 701 et seq.) suspension and termination from service, grievance procedures, sexual
harassment, other non-discrimination issues, and other topics as necessary.”

Recommendation:

We recommend that the Corporation:

9a. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure they
    conduct member orientation and document attendance.

Serve Alaska Response:

Server Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Midterm Evaluation Was not Maintained

For one of the 25 RurAL CAP member files tested, the mid-term evaluation was missing. RurAL
CAP indicated that the evaluation was lost due to human error. Such evaluations are important
in that they provide evidence that members have been properly supervised and have received
feedback on their performance.

Criteria:

The 2009 AmeriCorps Special Provisions, Section IV.D. Supervision and Support, Paragraph 4.
Performance Reviews, states, in part: “The grantee must conduct and keep a record of at least
a midterm and end-of-term written evaluation of each member’s performance for Full and Half-
Time members.”

Recommendation:

We recommend that the Corporation:

9b. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure they
    conduct and maintain a record of midterm evaluations.




                                             28
Serve Alaska Response:

Serve Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Member Enrollment or Exit Form Was not Approved in eGrants within 30 Days of Member
Enrollment or Exit

For two of the RurAL CAP member files tested, the member enrollment forms in eGrants were
not approved within 30 days. In addition, for two of the RurAL CAP member files tested, the
member exit forms in eGrants were not approved within 30 days of exit. These exceptions
occurred in PY 2008-09. Delays in entering this information into eGrants will result in the
Corporation having incomplete information concerning the members. RurAL CAP indicated that
improvements were made to its system at the beginning of PY 2009-10.

Criteria

The 2008 AmeriCorps Special Provisions, Section IV.C. Member Recruitment, Selection, and
Exit, Paragraph 1. Notice to the Corporation’s National Service Trust, states: “The grantee must
notify the Corporation’s National Service Trust within 30 days of a member’s selection for,
completion of, suspension from, or release from, a term of service.”

Recommendation:

We recommend that the Corporation:

9c. Ensure that Serve Alaska strengthens the monitoring of its subgrantees to ensure member
    enrollment and exit forms are approved in eGrants within 30 days.

Serve Alaska Response:

Serve Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Finding 10 - Salary cost for one staff person was undercharged to a grant

We noted that the salary cost for one RurAL CAP employee was undercharged by $470 to the
Recovery Act Grant No. 09RCHAK001. The actual hours worked supports an allocation of
salary costs of 54 percent, but the allocation used was only 27 percent. RurAL CAP indicated
that the accounting and payroll department had a software installation that made an error in its
calculation. It subsequently worked with the software company to correct the problem and
initiated a system to re-verify calculations during payroll processing.



                                              29
Criteria

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected
Items of Cost, Paragraph 8.m. Support of salaries and wages, states, in part:

   a. Charges to awards for salaries and wages, whether treated as direct costs or indirect
      costs, will be based on documented payrolls approved by a responsible official(s) of the
      organization. The distribution of salaries and wages to awards must be supported by
      personnel activity reports, except when a substitute system has been approved in writing
      by a cognizant agency.

   b. Reports reflecting the distribution of activity of each employee must be maintained for all
      staff members (professionals and nonprofessionals) whose compensation is charged, in
      whole or in part, directly to awards. In addition, in order to support the allocation of
      indirect costs, such reports must also be maintained for other employees whose work
      involves two or more functions or activities if a distribution of their compensation
      between such functions or activities is needed in the determination of the organization’s
      indirect cost rate(s).

Recommendation:

We recommend that the Corporation:

10. Work with Serve Alaska to verify that RurAL CAP’s new payroll software charges labor costs
    for employees based on actual hours worked for the grant.

Serve Alaska Response:

Serve Alaska concurred with the finding.

Auditors’ Comments:

The Corporation should follow up to ensure that the corrective action implemented by Serve
Alaska is effective.

Finding 11 – Three members were converted to full-time but were no longer serving on
the grant program

Three SAGA member Team Leaders were converted from half-time to full-time under
competitive Grant No. 07ACHAK001-0004. The slot conversion was approved by Serve Alaska.
The members completed their original half-time service period with the Serve Alaska Youth
Corps (SAYC) program, which focused on reconnecting Alaskan youth to their community by
providing service while also learning life skills. Service involved working on backlogged public
land projects. After completing their service under the original contract, these members started
serving with an Alaska Service Corps (ASC) program group that was funded through formula
Grant No. 06AFHAK001-0004. However, the members’ costs were still charged to Grant No.
07ACHAK001-0004. In addition, their new service assignment did not focus on reconnecting
Alaskan youth and teaching life skills. The crews that they were working with were eighteen
years and older and from across the United States. The only aspect that the program had in
common with Grant No. 07ACHAK001-0004 involved serving on backlogged public land
projects.


                                              30
We also found that the contracts for two of the members were reworked to indicate full-time
service and that those contracts were backdated. The original half-time contracts were not
available. The third member’s contract was modified through an amendment. SAGA wanted to
accommodate the members to have them serve full-time instead of a halftime. However, the
SAYC program that those members originally served on concluded after their half-time service.
SAGA did have a formula grant to support several crews to serve in the ASC program.
However, for two of the members this would have required them to serve another half-time term
under that grant, and would have prevented them from returning the next program year to serve
another term. One of the members was already in her second term. SAGA decided that since
the members would continue working on backlogged public land projects, it would be
appropriate to have them work with an ASC crew on the formula grant and extend their time
under the competitive grant.

The application for the formula grant explains the difference from the competitive grant.
“Whereas our currently funded state commission program, the Serve Alaska Youth Corps, is a
youth program that involves service, our Alaska Service Corps is a service program that
involves young people. The nuance is important. In one program (SAYSC), service is being
used as a means to provide education and training. In the other (ASC), service is the objective
for young people to achieve.” Additionally, the competitive grant agreement period of
performance ended August 31, 2010. We questioned $4,578 in Federal costs and $6,279 in
match costs for member living allowances that were paid from September through November
2010. We have also questioned $7,089 in questioned education awards beyond what the
member would earn under the original half-time contract.

Criteria:

The grant application for grant number 07ACHAK001-0004 states the following:

       The compelling community needs addressed by SAGA's two programs, Serve
       Alaska Youth Corps, and Connections, address the high rates of disconnected
       youth and the related risk factors of unemployment, involvement with the juvenile
       justice system, and school failure, especially among Alaska Native youth. Young
       people, ages 16-24, who are neither in school nor working are often defined as
       "disconnected" because they are not learning the skills needed to connect to the
       workforce or community as productive young adults.

       The Serve Alaska Youth Corps is a fulltime, largely residential program whose
       target population is disconnected/at-risk youth, ages 16-24, from rural Alaska.
       The SAYC is the summer component of SAGA's year-round Alaska Service
       Corps. The SAYC recruits statewide for its target population, with a special
       commitment to recruit from communities near projects. SAYC corps members
       will consist of 26 quarter time AmeriCorps Members, giving them three months in
       the program.

       Eight specially trained halftime AmeriCorps Members play vital roles on SAYC
       crews as Team Leaders. The Team Leaders are carefully recruited nationwide
       and begin in March. They receive 2.5 months of intensive training to prepare for
       roles as mentors and role models for the target population. The training is
       especially focused on safety and utilizing the projects as a means to help their
       corps members develop healthy attitudes and behaviors related to service, work
       habits, and teamwork.


                                              31
Recommendation:

We recommend that the Corporation:

11a. Resolve the questioned $4,578 in Federal costs and $6,279 in match member
     living allowances, along with the $7,089 in questioned education awards.

11b. Ensure that Serve Alaska verify that the service activity is consistent with the grant
     before slot conversions are approved.

Serve Alaska Response:

Serve Alaska disagrees with this finding, noting the members served on the competitive
grant the entire time and in activities clearly defined in the grant.

In the Rationale and Approach section of SAGA's SAYC grant proposal, it highlighted
critical community needs, including "A crisis level of backlogged environmental and
public safety projects on public lands in Alaska." In the Compelling Community Need
section of the proposal, this critical need is further supported by the statement: “As a
result, SAYC crews are a critical part of the strategy used by public land agencies in
Alaska to complete essential projects that would not otherwise get done."

The three members served with disconnected youth until the youths' graduated and this
mentorship satisfied all aspects of the grant. After the youths graduated, the three
members continued addressing the critical need of completing backlogged projects.
Nowhere in the grant does it say that the SAYC Team Leaders can only serve with
disconnected youth.

SAGA's intention and belief was to follow the grant objectives and the Corporation’s
principle of engaging citizens in service.

Auditors’ Comments:

The competitive and formula grants have separate purposes. Based on the grant
proposal for SAYC’s competitive grant, there was no specific intent to have the Team
Leaders serve longer than half-time to oversee and mentor the quarter-time members
over the summer. The Corporation should resolve the questioned costs and related
education awards, and ensure that Serve Alaska has taken the appropriate corrective
action.




                                               32
                           APPENDIX A


     SERVE ALASKA
RESPONSE TO DRAFT REPORT
             STATB OF ALASKA
             DEPARTMENT           Of

             COMMERCE
             CO MMUNITY AND
                                                                                Stan Parnell, Governor
             ECONOMIC DEVElOPMENT                                               S#J(111 Bell, u,mmisn()ntr
                                                                                  Nita Madstn, Dir«tor
             Serve Alaska

March 4, 2011




Mr. Stuart Axenfeld
Assistant Inspector General for Audit
Office Inspector General
1201 New York Avenue, suite 830
Washington, DC 20525

Dear Mr. Axenfeld:

On behalf of Serve Alaska, thank you for opportunity to respond to the findings outlined
in the Office of Inspector General draft report on the Agreed-Upon Procedures for
Corporation for National and Community Service grants awarded to Serve Alaska.

Serve Alaska continually evaluates our processes and systems in order to make
improvements to better ensure we are in compliance with the requirements,
expectations and needs of the Corporation. Working with the audit review team
provided us an opportunity to review our processes and systems through a different
lens and make additional adjustments to improve.

You will find Serve Alaska's response enclosed with this letter.

Sincerely,



~Mi::~
Executive Director


CC:
John Gomperts, Director, AmeriCorps* State and National, CNCS
Margaret Rosenberry, Director, Office of Grants Management, CNCS
Claire Moreno, Audit Liaison, Office of Grants Management, CNCS
Richard Sampson, Office of Inspector General
Gary Ling, Manager, Clifton Gunderson LLP
Dawn Grossmann, Chair, Serve Alaska


                                           Serving Alaskans Together

                        550 W. 7 th Avenue, Suife 1770, Anchorage, Alaska 99501 -3501
               Telephone: (907) 269-4637 Fax: (907) 269-5666   Text Telephone: (907) 465-5437
                                    Website: www.servealaska.alaska .gov
Page 14 / la (Unallowable Cost Charged to Disability Grant)

Serve Alaska Response:

Serve Alaska will make charges to the Disability Grant that are consistent with the purpose of the grant.




Page 15/ 1c (Allocation of Travel Costs was Unsupported)

Serve Alaska Response:

Serve Alaska disagrees with this finding. Travel is purchased in advanced, and allocated as a projection
of 'duties and time' when purchased. Timesheets are allocated as actua l 'duties and time' spent. At
ticket purchase, we projected duties and time to be split between Admin, PDAT and l earn and Serve .
During the visit, our needs and duties changed a bit and the timesheet reflected actual hours spent on
each duty. Serve Alaska feels this is a more accurate and just division of time and duties. Serve Alaska
also feels that matching a timesheet to a purchased ticket allocation is not accurate. In order to re-
allocate the ticket price t o match timesheets, our Fina nce department wou ld have to re-o pen up a
charge, re-distribute the charges to match a timesheet and re-process t he charge. Serve Alaska feels it is
not a prud ent use of time and energy when appropriate grants were charged in a reasonable amount
during each respective process.




Page 16/ 1d (Timesheet Exception)

Serve Alaska Response:

The State of Alaska does not typically require Executive Directors to submit timesheets, therefore no
State policy and procedure exists per the Recommendation.

To ensure grant compliance, Serve Alaska has worked with the Commissioner of the Department of
Commerce, Community, and Economic Development to establish an additional designee to verify and
approve the Serve Alaska Executive Director's timesheet in the absence of Deputy Commissioner or the
Commissioner. The Director of Administrative Services is now a third designated signer.




Page 17/ 2 (Grantee sub-awarded funds in excess of Corporation grant award)

Serve Alaska Response:

Serve Alaska does not agree that this is a finding. As stated before and supported with documentation,
CNCS made an error on the Notice of Grant Award (NGA) sheet. Serve Alaska caught the discrepancy
and brought it to CNCS's attention. This was before the Audit was announced.
Nowhere on the NGA (especially in the Award Description) does CNCS state a reduction in funding on
the Prime from the requested amount, nor does it state a reduction in funds to a single subgrant from
requested amounts. All Amendments state that all the other terms and conditions of this award remain
unchanged.

Specifically, please see 'Amendment 2' listed in eGrants for 07ACHAKOOl Prime (Application 10 #
09AC093757) attached (Attachment A). This is the first NGA for the 09 funding and the year in which
the error occurred. Amendment 2, in the Award Description section states "This award funds the
approved 2009-10 AmeriCorps Competitive programs, as listed on the approved program funding
summary chart." The funding summary chart (Attachment C) shows all of the subgrants, awarded at
their requested level. The amount approved in Corporation Funds is $1,366,222. This amount is the
total amount Serve Alaska funded to the subgrants, and Serve Alaska funded each subgrant in
accordance with the Funding Summary Chart as directed on the NGA.

Attachment B is included as it brings in the error on the NGA.

Serve Alaska complied with the NGA by following the directions in the Award Description.




Page 18/3a (NSOPR w as incomplete or improperly performed- eg all SO states)

Serve Alaska Response:

Serve Alaska's subgrants operated the NSOPR search complying with the Corporation's guidelines. Serve
Alaska will comply w ith any changes to the guidelines by CNCS.




Page 18/ 3c (NSOPR did not include Search based on Member's Maiden Name)

Serve Alaska Response:

Serve Alaska subgrants operated the NSOPR search utilizing the Corporation's guidelines. Serve Alaska
will comply with any changes to the guidelines by CNCS.




Page 20/3d (Criminalj NSOPR performed after Member enrollment)

Serve Alaska Response:

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.
Page 20/3e (No follow-up on Criminal Background findings)

Serve Alaska Response:

Serve Alaska feels this should be a compliance issue and not a questioned cost.




SAGA is keenly aware of the oversight in documenting the follow-up conducted by staff when
investigating       background check findings. SAGA takes this seriously and has taken steps to ensure
that intake personnel provide written documentation on file for actions taken. SAGA's current
Recruiter/HR Manger has been trained and oriented to regulations and requirements related to NSOPR
and criminal background checks - and trains other staff involved with intake.




SAGA has strengthened its policy and procedure on follow up on criminal background 'hits.' Serve
Alaska will strengthen its monitoring of criminal background checks with our subgrantees to ensure
CNCS compliance.

Page 21/4. (P roof of US citizenship was not properly verified prior to Member's start date)

Serve Alaska Response:

Serve Alaska is strengthening the monitoring of its subgrantees through an additiona l staff member.
Serve Alaska recognized that it needed additiona l staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member w ill provide overall strengthen ing of Serve Alaska and its monitoring of subgrantees.

Pate 22/Sa (Member contract for minor not signed by Parent/Legal Guardian)

Serve Alaska Response:

Serve Alaska is strengthen ing the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.
Page 23/ 5b (Member contract was not signed prior to beginning service)

Serve Alaska Response:

Serve Alaska identified this issue during previous site visits and worked with RurAL CAP to strengthen
their procedure on this issue.

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.

Page 24/ Sc (Incomplete Member contract in the Member file)

Serve Alaska Response:

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.

Page 25/ 6a (lack of procedures to ensure Member service hours are properly recorded)

Serve Alaska Response:

RurAL CAP has strengthened their procedures to prevent the issues for Sample 19 and 21.

RurAL CAP will implement the following steps to ensure that finalized timesheets are not signed by
supervisors prior to the period ending and are on record at the central office.

        RurAL CAP stated Preventative Steps:

        •      Coordinators will meet with a manager at the end of each pay period and provide
               timesheets for members that are to be submitted to payroll. Managers and coordinators will
               review timesheets and note any that are missing signatures and/or dates or have incorrect
               dates. The Coordinator will then follow-up with the missing information and bring
               completed timesheets to their next weekly meeting with the Manager. This process will be
               re-evaluated in six months, and adjustments made as appropriate.


Serve Alaska does not believe that Sample Member 24's hours and costs should be questioned. RurAL
CAP provided all of the requested and questioned timesheets to the auditors. The Auditor's response to
receiving these timesheets was that the Auditor's couldn't verify the signatures were obtained prior to
the testing.    Attached are statements provided by the Member and the Supervisor stating that the
timesheets were all signed at the time of service and not manufactured after the audit testing. {see
Attachment E and Attachment F) . Because all of the timesheets have been supplied and verified, Serve
Alaska feels RurAL CAP complied with CNCS guidelines on accessing timesheets and has provided all
timesheets to the Auditors to support the hours served.            Therefore these costs should not be
questioned.

Page 25/ 6b

Serve Alaska Response:

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.




Page 26/ 7 (A supplemental living allowance was provided to a Member without proper disclosure to the
Corporation)

Serve Alaska Response:

Serve Alaska identified this issue during a site visit prior to the audit and worked with Nine Star to
strengthen their procedure on this issue.

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.

Page 27/8 (Member information reported in eGrants did not agree with Members enrollment form and
contract)

Serve Alaska's Response:

Serve Alaska has no response for this recommendation, but will appreciate any guidance provided by
the Corporation.

Page 27/ 9a (lack of Documentation for Member Orientation Attendance)

Serve Alaska's Response:

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.
Page 28/ 9b (Midterm evaluation was not maintained)

Serve Alaska's Response:

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.




Page 28/ 9c (Member enrollment/ exit form was not approved in eGrants within 30 days)

Serve Alaska Response:

Serve Alaska is strengthening the monitoring of its subgrantees through an additional staff member.
Serve Alaska recognized that it needed additional staff to better monitor its subgrantees and requested
funding for an additional position, which was granted and an additional staff member was hired. This
staff member will provide overall strengthening of Serve Alaska and its monitoring of subgrantees.




Page 29/ 10 (Salary costs for one staff person was undercharged to a grant)

Serve Alaska Response:

Serve Alaska has confirmed with RurAL CAP that their payroll software has been corrected to ensure
labor costs for employees are based on actual hours wo rked for the grant:

        Improvements to the new software system utilized by payroll have eliminated this
        inconsistency. Monitoring of the system by the Finance Director and Human Resource Manager
        w ill ensure that the accounting software continues to function accurately. Additionally, monthly
        reviews of grant finances between program managers and the budget coordinator adds
        additional accountability in identifying under/over-charging of personnel to the account.


Page 31/ lla (Three Members were converted to full-time but were no longer serving on the grant
program)

Serve Alaska Response:

Serve Alaska disagrees with this finding, as the Members were serving on the Competitive grant the
entire time.

The three Members were serving on Activities clearly defined in the grant. SAGA's SAVC grant, in the
Rationale and Approach, mentions Critical Community Needs as a reason for submitting the proposal.
There are four Critica l Community Needs, one of which is "A crisis level of backlogged environmental
and public safety projects on public lands in Alaska."
In the Compelling Community Need of the proposal, the critical need is further supported. There is a
statement: liAs a result, SAVC crews are a critical part of the strategy used by public land agencies in
Alaska to complete essential projects that would not otherwise get done."

These three Members served with disconnected youth until the youths' graduation. This Mentorship
satisfied all aspects of the grant. After the graduation of the youth, the three Members continued with
the stated Critical Community Need, completing backlogged projects.

Nowhere in the grant does it say that the SAYC Team Leaders can ONLY serve with disconnected youth.
The SAYC Team Leaders start serving before the Youth are on board, and these hours are allowed. Also,
some training provided by SAGA had SAYC and ASC team leaders in attendance, learning alongside their
fellow AmeriCorps Members. Hours, demographics, and charges during this training were tracked
separately. Training two groups together helps to establishing a larger Esprit d' corps among the
Members and it is better utilization of grant money, requiring one instructor, materials and facility use.

At issue in the Audit Finding is the contract of the Members. They were updated, using suggestions
from CNCS trainings, documenting the changes in the Service Contract. The Members were originally
enrolled in early March of 2010, and were converted in early June. This was early on in their service,
and requested by the Members. The Serve America Act allows multiple terms of service, going into
affect the following (20l0) grant year. The one Member this may have had an immediate effected on
was the Member that had already served two terms. Extending the term of service for this Member
allowed her to continue being engaged in service, which is consistent with the identified needs of the
grant as well as the strategy for Member Development. This slot conversion was not SAGA's attempt to
'play the system' as Serve Alaska believes is implied in the Finding.

Another statement in the Audit Finding was "Additionally, the Competitive grant agreement period of
performance ended August 31, 2010." Serve Alaska is unsure of the intent of this comment. The three
Members in question were converted within the original grant agreement timeframe. Serve Alaska also
had issued a No Cost Extension for the SAYC grant, extending it to 11/30/2010. This would extend any
period of performance.

This Audit Finding seems to emphasize the joint efforts by the SAYC three Members (Competitive) and
the ASC (Formula) crew as a negative issue. The Audit draws a connection between the two grants,
implying that the SAYC crew blended with the ASC crew, yet stating that funds were kept separate.

Both SAYC and ASC grant objectives share a common thread: service on backlogged projects. SAGA and
Serve Alaska state the intent of these three Members serving with the ASC crew is not the joining of a
program, but a distinct and intentional separation.

    •   Serve Alaska and SAGA does not see the SAye 'joining' the ASe crews, instead they served
        alongside their fellow AmeriCorps Members.
    •   Performance by the three Members was tracked separately, being reported on SAYC
        demographic and Performance Measure reports.
    •   The separation of funds proves that SAGA was consistent in their mission and belief that the
        SAYC crews were not 'joining' the ASe, but instead serving alongside them.
Although the SAye grant did not specifically state the possibility of Members continuing service on
backlogged project s after the youth graduated, it is impossible to state every intention of a grant. eNeS
and eG rants limits the number of characters allowed in a proposal. Every grant pro posa l paints a broad
picture of goals and objectives, comm unity needs, Mem ber training and development, budget and cost
effectiveness, agency capabilities and more . To expect a proposal t o include every nua nce and t o
pred ict future needs i n the project is unrealistic. SAGA' s int ent ion and bel ief was following t he gra nt
objectives and th e eNCS principle of engaging citizens in service.
                                                 APPENDIX B


    CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
              RESPONSE TO DRAFT REPORT
 
                             NATIONAL&:
                             COMMUNITY
                             SERVICEtUi

To:

From:

Date:

Subject:      Response to OIG Draft of Agreed-Upon Procedures of Corporation Grant Awards
              to the Alaska State Community Service Commission


Thank you for the opportunity to review the Office of the Inspector General draft Agreed-Upon
Procedures report of the Corporation's grant awards to the Alaska State Community Service
Commission (Serve Alaska). We will work with the grantee to develop corrective actions. We
will respond to all findings and recommendations in our management decision when the audit
working papers are provided and the final audit is issued.


Cc:     William Anderson, Chief Financial Officer
        Wilsie Minor, Acting General Counsel
        John Gomperts, Director of AmeriCorps
